No. 20-658
In the

Supreme Court of the United States
__________________
SHERRI COHEN,
v.

Petitioner,

TRANS UNION LLC, ET AL.,
Respondents.
__________________
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Second Circuit

__________________

BRIEF IN OPPOSITION
__________________
CAMILLE R. NICODEMUS
Counsel of Record
ROBERT J. SCHUCKIT
SCHUCKIT & ASSOCIATES PC
4545 Northwestern Drive
Zionsville, IN 46077
(317) 363-2400
cnicodemus@schuckitlaw.com
rschuckit@schuckitlaw.com
Counsel for Respondent
Trans Union, LLC

Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTIONS PRESENTED
1. Whether the Supreme Court Should Review The
Second Circuit’s Decision Affirming Summary
Judgment In Trans Union’s Favor Where The
Second Circuit Explicitly “[did] not reach
[Petitioner’s] argument that the agencies’
procedures for reinvestigating disputed information
are not ‘reasonable’ under [FCRA] § 1681i” And The
District Court’s Interpretation of the FCRA’s
Reinvestigation Provision Is Not In Conflict With
Any Circuit Court Or This Court.
2. Whether The Supreme Court Should Review The
Second Circuit’s Legal Conclusion That the FCRA Is
Not Violated By A Consumer Reporting Agency’s
Routing Consumer Inquiries Through Counsel
During Litigation, Where Petitioner Identifies No
Conflict In The Circuit Courts On The Question
And Petitioner Improperly Seeks Review Of The
Correct Finding of Fact That Petitioner’s Credit File
Remained Accessible To Petitioner and to Potential
Creditors During The Litigation.
3. Whether The Supreme Court Should Review The
Second Circuit’s Decision Affirming Summary
Judgment In Trans Union’s Favor Based on
Petitioner’s Unfounded Allegation That The District
Court And Second Circuit Applied Unspecified
“Different Standards” To Her Claims Based on
Petitioner’s Pro Se Status.
4. Whether The Supreme Court Should Review The
District Court’s Legal Conclusion – Not Challenged
By Petitioner in the Second Circuit – That A

ii
Dispute Generated By a Credit Repair Company
Without Consulting The Consumer Does Not
Trigger The Reinvestigation Requirements Of The
FCRA, Where Petitioner Identifies No Conflict In
The Circuit Courts On The Question And Petitioner
Improperly Seeks Review Of The Correct Finding of
Fact That Petitioner’s Credit Repair Company
Generated Disputes Without Petitioner’s
Participation.

iii
SUPREME COURT RULE 29.6. CORPORATE
DISCLOSURE STATEMENT
Defendant Trans Union LLC, by counsel, pursuant
to Supreme Court Rule 29.6, states as follows:
TransUnion LLC discloses that the following parent
corporations and publicly held companies own 10% or
more of its stock: Trans Union LLC is a wholly owned
subsidiary of TransUnion Intermediate Holdings, Inc.
TransUnion Intermediate Holdings, Inc. is wholly
owned by TransUnion. TransUnion is a publicly traded
entity with the ticker symbol TRU. Investment funds
affiliated with T. Rowe Price Group, Inc., a publiclytraded entity with the ticker symbol TROW, own more
than 10 percent of TransUnion’s stock.

iv
TABLE OF CONTENTS
Questions Presented . . . . . . . . . . . . . . . . . . . . . . . . . i
Corporate Disclosure Statement . . . . . . . . . . . . . . . iii
Table of Authorities . . . . . . . . . . . . . . . . . . . . . . . . . vi
Statement of the Case . . . . . . . . . . . . . . . . . . . . . . . . 1
Reasons For Denying The Petition . . . . . . . . . . . . . . 4
A. The Supreme Court Should Deny The Petition
To Review The Second Circuit’s Decision
Affirming Summary Judgment In Trans Union’s
Favor Because The Second Circuit Explicitly
“[Did] Not Reach [Petitioner’s] Argument That
The Agencies’ Procedures Are Not “Reasonable”
Under [FCRA] §1681i” And The District Court’s
Interpretation of the FCRA’s Reinvestigation
Provision Is Not In Conflict With Any Circuit
Court Or This Court . . . . . . . . . . . . . . . . . . . . . . . 4
B. The Supreme Court Should Deny The Petition
To Review The Second Circuit’s Legal
Conclusion That the FCRA Is Not Violated By A
Consumer Reporting Agency’s Routing
Consumer Inquiries Through Counsel During
Litigation, Where Petitioner Identifies No
Conflict In The Circuit Courts On The Question
And Petitioner Improperly Seeks Review Of The
Correct Findings of Fact That Petitioner’s Credit
File Remained Accessible To Petitioner and to
Potential Creditors During The Litigation . . . . . 8

v
C. The Supreme Court Should Deny The Petition
To Review The Second Circuit’s Decision
Affirming Summary Judgment In Trans Union’s
Favor Based on Petitioner’s Unfounded
Allegation That The District Court And Second
Circuit Applied Unspecified “Different
Standards” To Her Claims Based on Petitioner’s
Pro Se Status. . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
D. The Supreme Court Should Deny The Petition
To Review The District Court’s Legal
Conclusion – Not Challenged by Petitioner In
The Second Circuit – That a Dispute Generated
By A Credit Repair Company Without
Consulting The Consumer Does Not Trigger The
Consumer Reporting Agency’s Reinvestigation
Obligations Under the FCRA, Where Petitioner
Identifies No Conflict In The Circuit Courts On
The Question and Petitioner Improperly Seeks
Review Of The Correct Finding of Fact That The
Disputes Generated By Petitioner’s Credit
Repair Company Were Done Without Her
Participation . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

vi
TABLE OF AUTHORITIES
Cases
Clingman v. Beaver,
544 U.S. 581 (2005). . . . . . . . . . . . . . . . . . . . . . . . 5
Cushman v. Trans Union Corp.,
115 F.3d 220 (3d Cir. 1997) . . . . . . . . . . . . . . . 6, 7
Exxon Shipping Co. v. Baker,
554 U.S. 471, 128 S.Ct. 2605,
171 L.Ed.2d 570 (2008) . . . . . . . . . . . . . . . . . . 5, 11
Henson v. CSC Credit Servs.,
29 F.3d 280 (7th Cir. 1994). . . . . . . . . . . . . . . . 6, 7
Hinkle v. Midland Credit Management, Inc.,
827 F.3d 1295 (11th Cir. 2016). . . . . . . . . . . . . . . 7
Jones v. Experian Info. Solutions, Inc.,
982 F. Supp. 2d. 268 (S.D.N.Y. Nov. 19, 2008) . . 7
Singleton v. Wulff,
428 U.S. 106, 96 S.Ct. 2868,
49 L.Ed.2d 826 (1976) . . . . . . . . . . . . . . . . . . . . . . 5
Stevenson v. TRW, Inc.,
987 F.2d 288 (5th Cir. 1993). . . . . . . . . . . . . . . . . 7
Rules
Sup. Ct. R. 10 . . . . . . . . . . . . . . . . . . . . . 3, 8, 9, 10, 11

1
STATEMENT OF THE CASE
Petitioner seeks review of the Second Circuit’s
decision affirming the District Court’s Order granting
Trans Union’s Motion for Summary Judgment.
Petitioner asserts claims against Consumer
Reporting Agency Trans Union pursuant to the Fair
Credit Reporting Act (“FCRA”) alleging
unsubstantiated inaccuracies in her Trans Union credit
report and that Trans Union failed to conduct
reasonable reinvestigations of her disputes. Petitioner
also claims that Trans Union’s implementation of a
procedure known as a “litigation lock” – whereby
communications with Petitioner regarding her Trans
Union credit file are handled by Trans Union’s counsel
during the pendency of the lawsuit – violated the
FCRA.
The District Court granted Trans Union’s Motion
For Summary Judgment and correctly held that:
i) Plaintiff failed to present an issue of fact that there
was a required inaccuracy in her Trans Union report;
ii) Plaintiff failed to present evidence that Trans
Union’s reinvestigations were unreasonable; iii) in the
absence of any violation of the FCRA, no reasonable
jury could find that Trans Union willfully violated the
FCRA (encompassing the litigation lock claim); and
iv) a dispute generated by a credit repair company
without consulting the consumer does not trigger the
reinvestigation requirements of the FCRA and the
disputes generated by Petitioner’s credit repair
company were done without Petitioner’s participation.
App., pp. SCP 53-57.

2
The Second Circuit affirmed the District Court,
holding that Petitioner’s FCRA claims failed in the
absence of a required inaccuracy and that it therefore
need not reach the question of whether Trans Union’s
reinvestigations were reasonable. App., p. SCP-64.
The Second Circuit affirmed the District Court’s
holding that there was no willful violation of the FCRA
(encompassing the litigation lock claim) and affirmed
the District Court’s factual finding that Petitioner’s
credit file remained accessible to Petitioner and to
potential creditors during the litigation. App., pp. SCP64-65. Finally, the Second Circuit affirmed the District
Court’s factual finding regarding Petitioner’s lack of
participation in the credit repair company’s disputes to
Trans Union, noting that Petitioner did not challenge
the District Court’s legal conclusion that such disputes
are not actionable under the FCRA. App., pp. SCP-6364.
Petitioner’s Petition for Rehearing was denied by
the Second Circuit. See Second Circuit Doc. No. 102.
The Petition For Writ Of Certiorari should be
denied, as set forth more fully below, because:
i)

Petitioner improperly seeks review of an
issue not reached by the Second Circuit,
namely, that Trans Union’s reinvestigations
were reasonable under the FCRA, and
Petitioner identifies no conflict between the
District Court’s interpretation of the FCRA’s
reinvestigation provision and any Circuit
Court or this Court on that issue;

3
ii)

Petitioner identifies no conflict between the
Second Circuit and any Circuit Court or this
Court on the legal conclusion that the FCRA
is not violated by a consumer reporting
agency’s routing consumer inquiries through
counsel during litigation and Petitioner
improperly seeks review of the findings of
fact that Petitioner’s credit file remained
accessible to Petitioner and to potential
creditors during the litigation;

iii)

Petitioner’s contention that the District
Court and the Second Circuit applied
unspecified “different standards” to her
claims based on her pro se status is wholly
unfounded and does not meet the criteria for
Supreme Court review under United States
Supreme Court Rule 10; and

iv)

Petitioner improperly seeks review of a legal
conclusion made by the District Court – that
she did not challenge in her appeal to the
Second Circuit – namely that a dispute
generated by a credit repair company
without consulting the consumer does not
trigger the consumer reporting agency’s
reinvestigation obligations under the FCRA,
and Petitioner identifies no conflict in the
Circuit Courts on the question and Petitioner
improperly seeks review of the factual
finding that the disputes generated by
Petitioner’s credit repair company were done
without her participation.

4
REASONS FOR DENYING THE PETITION
A. The Supreme Court Should Deny The Petition
To Review The Second Circuit’s Decision
Affirming Summary Judgment In Trans
Union’s Favor Because The Second Circuit
Explicitly “[Did] Not Reach [Petitioner’s]
Argument That The Agencies’ Procedures Are
Not “Reasonable” Under [FCRA] §1681i” And
The District Court’s Interpretation of the
FCRA’s Reinvestigation Provision Is Not In
Conflict With Any Circuit Court Or This
Court.
Petitioner seeks Supreme Court review of the
Second Circuit’s decision affirming Summary
Judgment in Trans Union’s favor on the issue of
whether Trans Union conducted a reasonable
reinvestigation pursuant to the FCRA. Petitioner’s
Brief (“Pet. Br.”), p. 2.
The Second Circuit did not reach this question,
however, because it affirmed the District Court’s
holding that Petitioner failed to establish the other
required elements of her FCRA claim, including
inaccurate credit reporting and a dispute that triggers
the FCRA’s reinvestigation obligations. The Second
Circuit made clear, that “[i]n the absence of any
dispute that (1) concerned information for which there
is a genuine dispute of fact regarding accuracy and
(2) triggers the reporting agency’s reinvestigation
obligations, we do not reach Cohen’s argument that the
agencies’ procedures for reinvestigating disputed
information are not ‘reasonable’ under § 1681i.”
Appendix (“App.”), p. SCP-64.

5
The Supreme Court should decline to review this
issue that explicitly was not reached by the Second
Circuit. “It is the general rule, of course, that a federal
appellate court does not consider an issue not passed
upon below.” Exxon Shipping Co. v. Baker, 554 U.S.
471, 487 128 S.Ct. 2605, 171 L.Ed.2d 570 (2008) (citing
Singleton v. Wulff, 428 U.S. 106, 120, 96 S.Ct.2868, 49
L.Ed.2d 826 (1976)); see also Clingman v. Beaver, 544
U.S. 581, 597 (2005) (“[w]e ordinarily do not consider
claims neither raised nor decided below.”)
The Supreme Court should decline to review the
District Court’s determination that Trans Union’s
reinvestigations were reasonable pursuant to the
FCRA for the additional reason that its interpretation
of the FCRA’s reinvestigation provision is not in
conflict with that of any Circuit Court or this Court. In
fact, numerous Circuit Courts have used the very same
language used by the District Court here in evaluating
compliance with the reinvestigation provisions of the
FCRA.
The District Court held that “‘the parameters of a
reasonable investigation will depend on the
circumstances of a particular dispute,’ and that ‘a
credit reporting agency may be required, in certain
circumstances, to verify the accuracy of its initial
source of information,’” noting that applicable factors
include “whether the consumer has alerted the
reporting agency to the possibility that the source may
be unreliable or the reporting agency itself knows or
should know that the source is unreliable,” as well as
“the cost of verifying the accuracy of the source versus
the possible harm inaccurately reported information

6
may cause the consumer.” App., p. SCP-50. The
District Court held that those factors did not weigh in
Petitioner’s favor here. App., p. SCP-51.1
Petitioner claims that the District Court’s
interpretation of the FCRA’s reinvestigation provisions
stands alone and she misconstrues the holdings from
the Third Circuit, Fifth Circuit and Seventh Circuit as
conflicting with the District Court here. Pet. Br., p. 2527. Those Circuit Courts, however, applied the very
same standard to the interpretation of the FCRA’s
reinvestigation provision as did the District Court in
this case. As such, Petitioner fails to show a conflict
between the District Court and any Circuit Court or
this Court.
Petitioner cites to Cushman v. Trans Union Corp.,
a decision cited by and relied on by the District Court
here, where the Third Circuit held that a credit
reporting agency “may be required, under certain
circumstances, to verify the accuracy of its initial
source of information,” citing the same factors to be
considered, including unreliability and cost. 115 F.3d
220, 225 (3d Cir. 1997). Petitioner also cites to Henson
v. CSC Credit Servs., where the Seventh Circuit
applied the very same standard, i.e., that certain
factors may require a consumer reporting agency to
1

The District Court also held that Petitioner’s failure to establish
the required element of an inaccuracy doomed her FCRA claims.
App., p. SCP-53. Petitioner’s false representations to this Court
that her allegedly inaccurate addresses and phone numbers
support her claim is contrary to law which provides that personal
identifying information is not actionable credit information under
the FCRA. App., p. SCP-63.

7
verify the accuracy of its initial source of information,
in that case, namely, that the consumer had a personal
dispute with the agent of the creditor. 29 F.3d 280, 286
(7th Cir. 1994). Finally, Petitioner cites to Stevenson
v. TRW, Inc., where the Fifth Circuit generally applied
the same standard, noting in that case that there was
evidence of unreliability of the creditor as it failed to
respond to the agency’s reinvestigations. 987 F.2d 288,
293 (5th Cir. 1993).
Other Circuit Courts, not noted by Petitioner, have
also consistently applied the same standard to FCRA
reinvestigations. See e.g., Hinkle v. Midland Credit
Management, Inc., 827 F.3d 1295, 1302 (11th Cir.
2016) (“what constitutes a ‘reasonable investigation’
will vary depending on the circumstances of the case.”)
Petitioner’s citations to District Court cases in the
Southern District of New York that she contends held
differently do not create a conflict ripe for the Supreme
Court’s review. Pet. Br., p. 26. Nevertheless, the cases
cited by Petitioner are not inconsistent with the
District Court’s holding here. See, e.g., Jones v.
Experian Info. Solutions, Inc., 982 F. Supp. 2d 268, 273
(S.D.N.Y. Nov. 19, 2008) (“a credit reporting agency
may be required, in certain circumstances to verify the
accuracy of its initial source,” citing the factors of
unreliability and cost) (citing to Cushman and Henson).
The Court should deny the Petition to review the
District Court’s decision – not reached by the Second
Circuit – that Trans Union complied with the FCRA’s
reinvestigation requirements, where Petitioners fail to
identify any decision from another Circuit Court or this
Court that is in conflict with the District Court’s

8
interpretation of the FCRA.
Supreme Court Rule 10.

See United States

B. The Supreme Court Should Deny The Petition
To Review The Second Circuit’s Legal
Conclusion That the FCRA Is Not Violated By
A Consumer Reporting Agency’s Routing
Consumer Inquiries Through Counsel During
Litigation, Where Petitioner Identifies No
Conflict In The Circuit Courts On The
Question And Petitioner Improperly Seeks
Review Of The Correct Findings of Fact That
Petitioner’s Credit File Remained Accessible
To Petitioner and to Potential Creditors
During The Litigation.
Petitioner seeks review of the Second Circuit’s
Decision affirming Summary Judgment in Trans
Union’s favor, including its holding that Trans Union’s
use of a “litigation lock” does not violate any provision
of the FCRA. Pet. Br., pp. 29-31. The Second Circuit
held that the FCRA “would not be violated by routing
credit queries through a legal team; nor would it be
violated by refusing membership in a credit monitoring
service.” App., p. SCP-65. Petitioner does not identify
any conflict among the Circuit Courts or with this
Court on the question, but instead improperly seeks
review of the factual findings of the Court below. Id.
The Second Circuit correctly noted that the
litigation lock merely provided a mechanism for
Petitioner’s queries to be addressed by Trans Union’s
counsel during the pendency of the litigation. App., p.
SCP-65. Petitioner’s claims that the litigation lock
“made [Petitioner’s] credit disappear,” took her “file

9
offline,” or prevented Petitioner from applying for
credit are untrue and are improper attempts to seek
appellate review of factual findings properly made by
the Court below. Pet. Br., p 29. The Second Circuit
found that the evidence did “not show that [Petitioner]
was denied access” to her credit file or “that any
request for credit information directed to the agencies’
legal teams was denied.” App., p. SCP-65.
The Court should deny the Petition to review the
Second Circuit’s legal conclusion regarding the
litigation lock, in the absence of any decision from
another Circuit Court or this Court that is in conflict,
and deny the Petitioner’s improper request for this
Court’s review of the correct findings of fact made by
the Court below. See United States Supreme Court
Rule 10.
C. The Supreme Court Should Deny The Petition
To Review The Second Circuit’s Decision
Affirming Summary Judgment In Trans
Union’s Favor Based on Petitioner’s
Unfounded Allegation That The District Court
And Second Circuit Applied Unspecified
“Different Standards” To Her Claims Based on
Petitioner’s Pro Se Status.
Petitioner seeks review of the Second Circuit’s
decision affirming Summary Judgment in Trans
Union’s favor based on wholly unfounded allegations
claiming unspecified “different standards” applied to
her claims based on her pro se status. Pet. Br., pp. 3134.

10
Petitioner’s contentions regarding the conduct of
defense counsel and the Courts below, see Pet. Br.
generally, are wholly false. Moreover, Petitioner fails
to point to any specific “standard’ that was applied
contrary to law in this matter. Pet. Br., generally.
The Court should deny the Petition to review the
Second Circuit’s decision based on Petitioner’s claim
regarding her pro se status, which is both false and
does not meet the criteria for consideration of a
Petition for Writ of Certiorari. See United States
Supreme Court Rule 10.
D. The Supreme Court Should Deny the Petition
To Review The District Court’s Legal
Conclusion – Not Challenged by Petitioner In
The Second Circuit – That a Dispute
Generated By A Credit Repair Company
Without Consulting The Consumer Does Not
Trigger The Consumer Reporting Agency’s
Reinvestigation Obligations Under the FCRA,
Where Petitioner Identifies No Conflict in the
Circuit Courts on the Question and Petitioner
Improperly Seeks Review Of The Correct
Finding of Fact That The Disputes Generated
By Petitioner’s Credit Repair Company Were
Done Without Her Participation.
Petitioner seeks Supreme Court review of the
District Court’s holding that credit disputes generated
by a credit repair company without the participation of
the consumer do not trigger the reinvestigation
provisions of the FCRA. Pet. Br., pp. 34-35. The
Second Circuit correctly noted that Petitioner did not
challenge this holding on appeal, noting that

11
“[Petitioner] does not challenge the district court’s legal
conclusion that a dispute generated by a credit repair
company without consulting or notifying the consumer
does not trigger the reporting agency’s reinvestigation
obligations under § 1681i, and she has thus abandoned
that challenge.” App., p. SCP-63. The Court should
decline to review an issue that was not before the
Second Circuit or addressed by the Circuit Court.
Exxon Shipping Co. v. Baker, 554 U.S. 471, 487, 128
S.Ct. 2605, 171 L.Ed.2d 570 (2008).
Petitioner identifies no Circuit Court decisions in
conflict with the Second Circuit and instead, Petitioner
confuses the legal principle – that she did not
challenge – with the factual issue of whether
Petitioner’s credit repair company consulted her in
preparing disputes to Trans Union. Pet. Br., p. 35. As
to that issue, the Second Circuit noted that, “as the
district court found, [Petitioner] repeatedly testified
that, after she retained Creditrepair.com’s services, it
generated disputes without her input or that she had
no memory of being involved in initiating the disputes.”
App., p. SCP-64.
Petitioner improperly seeks review of the factual
determination that she was not involved in the
preparation of the disputes to Trans Union prepared by
the credit reporting company. Pet. Br., p. 35. The
Court should deny the Petition to review the correct
findings of fact affirmed by the Second Circuit. See
United States Supreme Court Rule 10.

12
CONCLUSION
For the foregoing reasons, the petition for a writ of
certiorari should be denied.
Respectfully submitted,
CAMILLE R. NICODEMUS
Counsel of Record
ROBERT J. SCHUCKIT
SCHUCKIT & ASSOCIATES PC
4545 Northwestern Drive
Zionsville, IN 46077
(317) 363-2400
cnicodemus@schuckitlaw.com
rschuckit@schuckitlaw.com
Counsel for Respondent
Trans Union, LLC
January 13, 2021

